           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


             FOLLOW-UP:
THE SOCIAL SECURITYADMINISTRATION’S
         MANAGEMENT OF ITS
FEDERAL EMPLOYEES’ COMPENSATION ACT
              PROGRAM

     March 2008    A-13-07-17074




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM


Date:      March 31, 2008                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: The Social Security Administration’s Management of Its Federal Employees’
           Compensation Act Program (A-13-07-17074)


           OBJECTIVE

           Our objective was to determine the extent to which the Social Security Administration
           (SSA) implemented certain recommendations in our October 2001 report, The Social
           Security Administration’s Management of Its Federal Employees’ Compensation Act
           Program. We also reviewed other actions the Agency took concerning the oversight
           and monitoring of its Federal Employees’ Compensation Act (FECA) program.

           BACKGROUND

           FECA (5 U.S.C. § 8101, et seq.) provides compensation benefits to civilian Federal
           employees for disability due to personal injury sustained while performing official duties
           or for an employment-related disease. It provides payment as compensation for lost
           wages, monetary awards for bodily impairment or disfigurement, medical care,
           vocational rehabilitation, and survivor’s compensation. The U. S. Department of
           Labor's (DoL) Office of Workers’ Compensation Programs approves and adjudicates
           FECA claims for all Federal agencies. With assistance from SSA management, DoL
           administers FECA benefits for all SSA employees.

           SSA is responsible for continuing an employee’s regular wages, without charging
           annual or sick leave for up to 45 days while the employee is recovering from a
           FECA-covered injury or disease. If the disability continues for more than 45 days from
           the date of injury or the onset of the disease, DoL provides compensation for lost
           wages after a 3-day waiting period in a non-paid status. In addition, DoL provides
           payment for medical benefits.
Page 2 - The Commissioner


Costs DoL incurs while providing FECA benefits are charged back to the claimant’s
employing agency. SSA reimburses the Employees’ Compensation Fund through its
                                                                       1
annual operating appropriations. Based on the Chargeback Years (CBY) 2003
through 2006 listings, SSA’s FECA program costs totaled about $92.6 million.

Our October 2001 report identified several concerns in SSA’s management of its FECA
program and made recommendations to address these issues. Our current review
determined the extent to which SSA implemented six of the eight recommendations in
our 2001 report (see Appendix B). 2 Since the responsibility for one recommendation
rested with another Federal agency, and SSA disagreed with the remaining
recommendation, we did not assess these matters during this review.

During this review, we analyzed the electronic listings for CBYs 2003 through 2006 to
determine the Agency’s FECA program costs. These four listings identified costs for
11,668 FECA claimants receiving compensation and medical benefits from July 1, 2002
through June 30, 2006. Some claimants received FECA benefits for more than 1 CBY.
Of the 11,668, we found 6,139 claimants listed at least once on the chargeback listings.
We examined the data for the 6,139 FECA claimants to determine the extent to which
SSA implemented certain recommendations in our October 2001 report.

•     We examined the 2006 CBY process to assess timely distribution, review, and use
                             3
      of chargeback reports.
•     We used 2003 through 2006 CBY data to determine whether FECA claimants for
      these periods were SSA employees.
•     We assessed 2003 through 2006 CBY data to determine whether the Agency
      recovered all FECA program costs paid for previously identified non-SSA
      employees.
•     We selected a sample of 50 FECA claimants from the 2003 through 2006 CBYs to
      determine compliance with the Agency’s third-party liability procedures.

See Appendix C for detailed discussions of the Scope and Methodology and
Appendix D for the Sampling Methodology.




1
    A CBY covers FECA costs from July 1 through June 30.
2
 We also reviewed the extent to which SSA took action concerning related recommendations in the
May 1995 report, Review of the Social Security Administration’s Management of Claims Filed Under the
Federal Employees’ Compensation Act (A-13-92-00236).
3
 A chargeback report is a statement of benefit payments provided to the employing agency’s FECA
claimants.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA took corrective action on the six recommendations from our October 2001 report.
In addition, the Agency used available internal data to detect FECA claimants who may
not have been eligible to receive program benefits.

Recommendations from Our Prior Review
Below, we discuss Recommendations 1 through 5 and 7 from our October 2001 report,
the corrective actions taken by the Agency, and the results of our current review.
Recommendations 6 and 8 are not discussed in this report because the responsibility
for Recommendation 6 rested with another Federal agency, and SSA disagreed with
Recommendation 8.

   Recommendation 1: We recommended SSA designate a program official to
oversee the Agency-wide management of SSA’s FECA program, including developing,
implementing, and monitoring compliance with SSA-specific FECA program policy and
operational procedures. 4

We independently verified the Office of Personnel’s Director of the Center for Personnel
Security and Project Management, is the official responsible for overseeing
Agency-wide management of SSA’s FECA program, as SSA previously reported.
Those responsibilities include developing and implementing program policy and
monitoring compliance with FECA policies and procedures.

    Recommendation 2: We recommended SSA develop and implement internal
controls to address the timely distribution, review, and use of chargeback reports. We
also recommended SSA provide appropriate training to ensure workers’ compensation
specialists understand the chargeback review process. In our 2001 report, we also
stated as the Agency developed its controls, SSA needed to effectively implement the
recommendations in our 1995 audit report, as previously agreed.

The Agency reported it had established internal controls to address the timely
distribution, review, and use of chargeback reports. During our prior audit, we found
chargeback reports were not being reviewed. For CBY 2006, we examined
documentation for the receipt, distribution, and use of chargeback data within SSA. We
found chargeback report data were distributed electronically to the Servicing Personnel
Offices (SPO) 5 within 2 weeks of their initial receipt by the Center for Personnel
Security and Project Management. When this information was provided, detailed
instructions for its review and the correction of charge errors were also provided to the
SPOs. Lastly, we independently verified the Center for Personnel Security and Project

4
 Our May 1995 audit report entitled Review of the Social Security Administration’s Management of Claims
Filed Under the Federal Employees’ Compensation Act (A-13-92-00236) also contained a similar
recommendation (see Appendix E).
5
    An SPO refers to the Personnel Office servicing an office/component.
Page 4 - The Commissioner


Management required that SPOs report the results of the chargeback data review within
specific timeframes. See Appendix E for information concerning the recommendations
in our 1995 report.

   Recommendation 3: We recommended SSA verify that all claimants for whom it is
paying FECA program costs are actually SSA employees.

The Agency reported it created an automated process to match the claimants’
chargeback information to data recorded in the Agency’s Human Resources
Management Information System (HRMIS). This action is intended to ensure DoL only
charges claimant costs for SSA employees.

We did not have direct access to HRMIS. So, we requested SSA to complete a
computerized match of data recorded in HRMIS to the FECA claimants’ Social Security
numbers (SSN). The computerized match was intended to identify individuals included
in the Agency’s chargeback data that were not SSA employees. SSA is responsible for
the FECA–related costs for its employees and volunteers. The Agency matched
HRMIS data, as of July 2007, with the SSNs of 6,139 FECA claimants identified as SSA
employees for CBYs 2003 through 2006.

Based on the computerized match, not all of the 6,139 FECA claimants were SSA
employees. Of the 6,139 FECA claimants, the Agency reported 6,055 were employees,
and 5 were volunteers working for the Agency. 6 However, of the 6,055 employees,
DoL’s chargeback listings had invalid SSNs for 38. We independently reviewed
documentation and confirmed the employment status of these individuals.

Of the remaining 79 claimants, the Agency reported 72 were SSA employees hired
before HRMIS was implemented, and the data for 7 claimants did not match
information recorded in HRMIS. Based on our independent review of supporting
documentation for the 72 individuals, we confirmed the employment status of 71. We
found one individual was not an SSA employee. At the time of our 2001 audit, we
questioned whether this individual was an SSA employee. At that time, Agency staff
reported the claimant was an SSA employee.

In 2007, our Office of Investigations determined the one individual had been an SSA
employee, but his work component, and FECA-related liability transferred from SSA to
                                   7
another Federal agency in 1977. The policy states “…credits or debits will be made
only for charges appearing on the agency’s most recent [Chargeback Year] bill.” 8 As a
result, in May 2007, the Agency limited its request for a reduction of costs previously
paid for this individual to approximately $43,400 for CBY 2006. In addition, SSA
requested the removal of this claimant from its 2007 chargeback listing. We believe

6
    SSA incurs the FECA cost for volunteers working for the Agency under limited circumstances.
7
    Injury Compensation for Federal Employees Publication CA-810 - Chapter 9-5.
8
    Id.
Page 5 - The Commissioner


that, had SSA correctly determined the claimant’s employment status during our prior
review, it could have prevented incurring $201,700 in additional FECA-related costs.

The Agency reported the remaining seven FECA claimants were not SSA employees.
Between 2003 and 2006, the Agency requested DoL to remove these claimants from
SSA’s chargeback reports. Although these individuals appeared on reports between
CBYs 2003 through 2006, only one had FECA-related costs charged to SSA. For this
individual, SSA received a credit of approximately $201,000 in CBY 2006. Since there
were no FECA-related charges on recent chargeback year bills for the other six
individuals, SSA officials reported the Agency did not receive cost credits for these
claimants. We believe actions taken by SSA for the seven FECA claimants were
appropriate.

   Recommendation 4: We recommended SSA recover all FECA program costs the
Agency paid for non-SSA employees.

In 2001, we reported SSA determined nine individuals on its 1998 CBY report were
non-SSA employees. SSA stated it notified DoL and SSA’s Office of Finance to
recover any monies paid to the nine non-SSA employees identified on the chargeback
listing for 1998. Additionally, SSA reported it notified DoL to remove the nine non-SSA
employees from future chargeback listings.

In CBY 1998, the Agency paid approximately $240,000 for these nine FECA claimants.
Of the nine, the Agency received FECA program cost credits for five of the non-SSA
employees totaling about $152,500. As a result of DoL’s policy limiting refunds to
1 year, SSA reported receiving a reduction of approximately $4,600 for charges
appearing for one claimant in CBY 2001 and $147,900, for charges appearing for the
other four claimants in CBY 2002. Cost credits were not received for the remaining
four non-SSA employees because the Agency did not incur FECA-related costs for
these individuals after CBY 1998.

   Recommendation 5: We recommended that SSA monitor compliance with SSA’s
guidance on third-party liability processing.

SSA stated it would continue to closely monitor compliance with its guidance on
third-party liability processing. In addition, the Agency stated “…improvements to our
existing section on third-party claims in our workers’ compensation
handbook/processing manual, we issued supplemental guidance on this issue on
June 13, 2001.” Further, the Agency reported the handbook will be on the workers’
compensation website and reminders would be issued to all regional workers’
compensation staff on the importance of identifying third-party claims.

To assess SSA’s compliance with its guidance on third-party liability processing, we
randomly selected and reviewed a sample of 50 individuals identified on the 2003
through 2006 CBY reports. We examined either the Federal Employee’s Notice of
Traumatic Injury and Claim for Continuation of Pay/Compensation (Form CA-1) or
Page 6 - The Commissioner


Notice of Occupational Disease and Claim for Compensation (Form CA-2). As of
October 30, 2007, the Agency had provided information pertaining to 50 claimants.
Documentation for the 50 claimants was reviewed to determine whether, as required,
the Form CA-1 or CA-2 indicated a decision was made concerning the possibility of
third-party liability. Of the 50, documents for 48 FECA claimants indicated a decision
was made concerning third-party liability. For the two remaining claimants, the
Form CA-2s were an older version that did not contain the third-party liability question.

    Recommendation 7: We recommended SSA develop and implement an
information system that uses information technology for the management and
monitoring of FECA cases.

The Agency reported, since 1997, it had taken significant steps to evaluate and obtain a
comprehensive workers’ compensation case management and tracking system. SSA
stated, “After a thorough evaluation of those systems, we determined in August 2000
that the Department of Defense (DoD) system, which is real-time, would allow for
efficient case management and tracking as well as management information reports.”

We verified that in January 2003 SSA implemented a claimant case management and
tracking system. The Agency uses the Workers' Compensation Case Management
Information System (WCCMIS) to manage and monitor its FECA claimant cases. In
July 2007, we obtained direct access to WCCMIS and reviewed the system capabilities.
Our review found the automated system provides such information as claimant case
status, payroll and personnel data, and compensation and medical bill payments. The
system can generate several reports. For example, a detailed chargeback billing list for
a specific period, compensation bill payment lists, or summary reports of compensation
costs by nature of injury.

Other Oversight and Monitoring Actions

We also reviewed actions the Agency took concerning its oversight and monitoring of
the FECA program. Specifically, we determined whether SSA used available internal
data to detect FECA claimants who may not have been eligible to receive program
benefits. An official of the Center for Personnel Security and Project Management
reported computerized data matches were completed to identify deceased individuals
listed on the Agency’s FECA chargeback reports. The official explained information
from the chargeback reports and the Agency’s Numident File were matched to identify
deceased FECA claimants. We reviewed the results of the Agency’s July 2006 data
match of information recorded in its Numident File and the CBY 2006 report. For each
individual identified, the Agency requested DoL to terminate FECA benefits and remove
the claimant from the chargeback reports.
Page 7 - The Commissioner


CONCLUSIONS
SSA has taken action to implement recommendations from our October 2001 audit
report. Additionally, the Agency took other actions concerning the oversight and
monitoring of its FECA program. As a result, we are not making any additional
recommendations.

AGENCY COMMENT
SSA agreed with our conclusions. See Appendix F for the full text of SSA’s comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Recommendations from October 2001 Report, The Social Security
             Administration’s Management of Its Federal Employees’ Compensation
             Act Program (A-13-99-91003)

APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology
APPENDIX E – Implementation of Recommendations from May 1995 Report, Review
             of the Social Security Administration’s Management of Claims Filed
             under the Federal Employees’ Compensation Act (A-13-92-00236)

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
CBY      Chargeback Year
DCHR     Deputy Commissioner for Human Resources
DoL      Department of Labor
FECA     Federal Employees’ Compensation Act
HRMIS    Human Resources Management Information System
MTAS     Mainframe Time and Attendance System
OIG      Office of the Inspector General
SSA      Social Security Administration
SSN      Social Security Number
SPO      Servicing Personnel Office
WCCMIS   Workers’ Compensation Case Management Information System
                                                                         Appendix B

Recommendations from October 2001 Report, The Social
Security Administration’s Management of Its Federal
Employees’ Compensation Act Program (A-13-99-91003)
In our October 2001 report, The Social Security Administration’s Management of Its
Federal Employees’ Compensation Act Program, we stated the Social Security
Administration (SSA) was not effectively managing its Federal Employees’
Compensation Act (FECA) program. The following are recommendations included in
that report and SSA’s comments. We excluded two recommendations because one
recommendation rests with another Federal agency, and SSA disagreed with the other.

Recommendation 1

   Designate a program official to oversee the Agency-wide management of SSA’s
   FECA program, including developing and implementing, and monitoring compliance
   with SSA-specific FECA program policy and operational procedures.

    Comment

    We agree and have complied with this recommendation since 1997. The director
    of the Project Management Staff, Office of Personnel, DCHR [Deputy
    Commissioner, Human Resources] will continue to be the program official
    overseeing Agency-wide management of the FECA program. SSA has already
    developed guidance in all areas of workers’ compensation and will ensure that the
    responsible program officials continue to place greater emphasis on monitoring
    compliance of the SSA-specific FECA program policy/operational procedures.

    Specific improvements and internal controls that have been implemented in
    workers’ compensation include, but are not limited to, the following. SSA:

   •   Issued national workers’ compensation policy in January 2000 to all SSA
       managers and supervisors. The policy was also distributed in Braille format.

   •   Began sending periodic issuances in November 1999 to the field offices to
       provide them with technical instructions, information and reminders. The
       issuances included subjects such as how to review chargeback listings, third-
       party liability, and MTAS [Mainframe Time & Attendance System] codes to be used for
       workers’ compensation claimants.

   •   Reduced both workers’ compensation case processing time and lost production
       days.


                                             B-1
  •   Resolved chargeback listing issues with the DOL [U.S. Department of Labor] to
      ensure SSA receives chargeback listings timely and electronically (a proper
      format on a CD-ROM), in addition to a hard copy, for identification purposes. We
      developed a centralized internal control to electronically match DOL data with the
      Human Resource Management Information System (HRMIS) data to distinguish
      SSA from non-SSA employees who appear on the chargeback listing. (Refer to
      our comments regarding Recommendations 3, 4, and 5.)

  •   Developed an internal control process to notify DOL and SSA’s Office of Finance
      of any non-SSA employees. This is to ensure that DOL removes non-SSA
      personnel from future chargeback listings and notifies the Office of Finance to
      not remit payment for those non-SSA personnel. (Refer to our comments
      regarding Recommendations 3, 4, and 5.)

  •   Provided each Servicing Personnel Office (SPO) with its specific chargeback
      listing on CD-ROM using the data received from DOL for review, appropriate
      actions, and to assist the SPO in returning to duty employees on long-term
      workers’ compensation.

  •   Worked with DOL to ensure that the most current workers’ compensation forms
      were accessible on its website, while removing many obsolete forms. We have
      included all the latest workers’ compensation forms on the SSA, Office of
      Personnel, Intranet web site http://co.ba.ssa.gov/ope/.

  •   Developed a customer satisfaction comment card for employees who receive
      assistance from our workers’ compensation staff. Feedback thus far has been
      highly favorable.

  •   Developed the workers’ compensation web page that currently provides access
      on workers’ compensation policy, forms and frequently asked questions. In the
      near future, the SSA workers’ compensation handbook will be available via the
      web page.

Recommendation 2

   Develop and implement internal controls to address the timely distribution, review,
   and use of chargeback reports. Provide appropriate training to ensure workers’
   compensation specialists understand the chargeback report review process. As the
   Agency develops its controls, SSA needs to effectively implement the
   recommendations in our 1995 audit report, as previously agreed.




                                          B-2
   Comment

   SSA has already implemented an effective timeliness and accurate chargeback
   listing process with DOL. The new process requires DOL to provide the
   chargeback information to SSA on a CD-ROM. SSA matches the items from the
   DOL CD-ROM to the Human Resource Management Information System (HRMIS)
   to ensure that all claimants are SSA employees. (If a non-SSA employee is
   identified, SSA reports this information to DOL and instructs SSA’s Office of
   Finance to not pay DOL for this individual). A CD-ROM is created for each region
   with detailed instructions on how to review the information. SSA will continue to
   routinely distribute chargeback listings on CD-ROM to regional workers’
   compensation staffs and require that each region report back to headquarters
   within a specific timeframe on the outcome of the review.

   The guidance issued with each chargeback report is sufficient to ensure that
   workers’ compensation specialists are aware of their role and responsibilities in
   reviewing the chargeback listings. The guidance specifically points to publication
   CA-810, subchapter 9-4, issued February 1994, for detailed instructions on
   reviewing the chargeback listings and procedures to report and correct billing
   errors. Also, SSA has developed specific instructions for reviewing chargeback
   listings and will ensure that these instructions accompany all chargeback listings
   when distributed to the regions.

   Many of the audit report recommendations are the same as in the 1995 OIG audit
   report. As indicated in our comments, the recommendations have either already
   been implemented or are in the process of being implemented.

Recommendation 3

   Verify that all claimants for whom it is paying FECA program costs are actually SSA
   employees.

   Comment

   We agree with this recommendation and, as stated in our response to
   recommendation 3, we have a system in place that will ensure that FECA program
   costs are only paid to SSA employees and/or their heirs/dependents, as
   appropriate.

Recommendation 4

   Recover all FECA program costs the Agency paid for non-SSA employees.




                                         B-3
   Comment

   We agree. As previously mentioned in our response to recommendations 2 and 3,
   SSA notified DOL and SSA’s Office of Finance to recover any monies paid to the
   nine non-SSA employees identified on the chargeback listing for 1998. In addition,
   SSA has notified DOL to remove those nine non-SSA employees from future
   chargeback listings. The DOL has notified the Agency that the chargeback listing
   for chargeback year 2001 reflects credits based on our identification of non-SSA
   employees. However, it is important to note that while SSA has notified DOL to
   remove those non-SSA claimants from the chargeback listings, both at the regional
   and central level, DOL continues to include them on chargeback listings.

Recommendation 5

   Monitor compliance with SSA’s guidance on third-party liability processing.

   Comment

   We agree and will continue to closely monitor compliance with SSA guidance on
   third-party liability processing. Although we have made further improvements to our
   existing section on third-party claims in our workers’ compensation
   handbook/processing manual, we issued supplemental guidance on this issue on
   June 13, 2001. The workers’ compensation handbook will be on our workers’
   compensation web page once labor relation obligations are met. A reminder will be
   issued to all regional workers’ compensation staff on the importance of identifying
   third-party claims and the procedures for doing so.

Recommendation 7

   Develop and implement an information system that uses information technology for
   the management and monitoring of FECA cases.

   Comment

   We agree and since 1997 have taken significant steps to evaluate and obtain a
   comprehensive workers’ compensation case management and tracking system. In
   1997 we starting meeting with other Federal agencies (e.g., United States Postal
   Service, Internal Revenue Service, Department of Agriculture, Veterans
   Administration and the Department of Defense) to discuss their case management
   and tracking systems and to determine if their systems would meet the needs of
   SSA. After a thorough evaluation of those systems, we determined in August 2000
   that the Department of Defense (DOD) system, which is real-time, would allow for
   efficient case management and tracking as well as management information
   reports.




                                         B-4
The DOD system is populated with weekly and/or biweekly downloads from DOL
and can be tied into SSA’s payroll system and HRMIS. The system will ultimately
have the capacity to allow the electronic processing of workers’ compensation
cases and provide a centralized workers’ compensation case management and
tracking system that would be populated with real time data on all SSA cases
nationwide. This would obviate the need for SSA’s regions and headquarters to
maintain their own tracking systems. However, at the time this system was
previewed in August 2000, it did not meet SSA’s need for real-time data. The
system was a disk-based system that required the mailing of disks/CDs from DOL
to DOD and then SSA, and subsequently, to the SSA regions. In January 2001,
the Internet-based system became available, and this version met our operational
needs. However, before the Agency can pursue funding of this system, it must be
modified for compliance with section 508 of the Rehabilitation Act. We are
currently working with DOD on the necessary modifications.




                                     B-5
                                                                     Appendix C

Scope and Methodology
This review was a follow up of the recommendations in our October 2001 report, The
Social Security Administration’s Management of Its Federal Employees’ Compensation
Act Program. Our objective was to determine the extent to which the Social Security
Administration (SSA) implemented certain recommendations in our October 2001
report. We also reviewed other actions the Agency took concerning the oversight and
monitoring of its Federal Employees’ Compensation Act (FECA) program.

To accomplish our objective, we:

•   Reviewed applicable Federal laws and SSA policy relating to the FECA program.
•   Interviewed officials from SSA’s Offices of Personnel and Earnings, and
    Enumeration and Administrative Systems to determine the status of corrective
    actions taken to address recommendations in our October 2001 report.
•   Reviewed prior Office of the Inspector General reports.
•   Obtained an understanding SSA’s Workers’ Compensation Claims Management
    Information System (WCCMIS) functionality.
•   Obtained and reviewed management information generated from WCCMIS.
•   Reviewed the Agency’s oversight and monitoring activities pertaining to the
    management of SSA’s FECA program.

We analyzed the electronic listings for Chargeback Years (CBY) 2003 through 2006 to
determine the Agency’s FECA program costs. The electronic chargeback listings were
created by the Department of Labor (DoL) and obtained from the Center for Personnel
Security and Project Management employees. The electronic listings contained case
management and compensation for lost wages and medical information. The 4 listings
identified costs for 11,668 FECA claimants receiving compensation and medical
benefits from July 1, 2002 through June 30, 2006. Some claimants received FECA
benefits for more than 1 CBY. Of the 11,668 claimants, we found 6,139 listed at least
once on the chargeback listings. We examined the data for the 6,139 FECA claimants
to determine the extent to which SSA implemented certain recommendations in our
October 2001 report.

•   We examined the 2006 CBY process to assess timely distribution, review, and use
    of chargeback reports. Specifically, we reviewed and compared the date the Center
    for Personnel Security and Project Management received the chargeback reports
    from DoL to the date the reports were distributed to SSA’s Servicing Personnel
    Offices. Additionally, we reviewed policies and procedures regarding the review and
    use of chargeback reports.



                                           C-1
•   We used 2003 through 2006 CBY data to determine whether FECA claimants for
    these periods were SSA employees (see Appendix D for the Sampling
    Methodology).

•   We assessed 2000 through 2006 CBY data to determine whether SSA recovered all
    FECA program costs paid for previously identified non-SSA employees. We
    reviewed chargeback reports to determine whether the Agency received credit for
    the costs it previously paid for non-SSA employees as well as the dollar value of the
    credit received. Additionally, we reviewed the chargeback reports to determine
    whether the non-SSA employees had been removed from future chargeback
    reports.

•   We selected a sample of 50 FECA claimants from the 2003 through 2006 CBYs to
    determine compliance with SSA’s third- party liability procedures. We reviewed
    certain claimant case file documentation to determine whether the Agency’s
    procedures were followed (see Appendix D for the Sampling Methodology).

•   We determined the extent to which SSA implemented certain recommendations
    made in our 1995 report, Review of the Social Security Administration’s
    Management of Claims Filed under the Federal Employees’ Compensation Act. We
    reviewed SSA’s actions pertaining to those recommendations that focus on
    (1) appointing one or more senior-line officials to coordinate FECA responsibilities
    both at central and regional offices; (2) maintaining case files; (3) verifying FECA
    claimants were SSA employees; and (4) reviewing third-party liability concerning
    Agency FECA claimants. See Appendix E.

We determined the data used in this report were sufficiently reliable given our review
objectives and intended use of the data. With the exception of data recorded in SSA’s
Human Resources Management Information System (HRMIS), the electronic data used
for our review was extracted from the 2003 through 2006 chargeback listings. We
assessed the reliability of the electronic data by reviewing the data extract for all the
data elements needed to meet our objective. We also traced information from the data
extract to WCCMIS and the “original claims forms.” 1 We did not have direct access to
HRMIS. So, we did not assess the reliability of the HRMIS data SSA used to complete
a computerized match of data recorded in HRMIS to FECA claimants’ Social Security
numbers.

We performed our review at SSA Headquarters in Baltimore, Maryland, between May
and September 2007. The entity audited was the Office of Personnel under the Deputy
Commissioner for Human Resources. We conducted our work in accordance with
generally accepted government auditing standards.



1
 Original claims forms consisted of Federal Employee’s Notice of Traumatic Injury and Claim for
Continuation of Pay/Compensation, Form CA-1; and Notice of Occupational Disease and Claim for
Compensation, Form CA-2.


                                                 C-2
                                                                      Appendix D

Sampling Methodology
We analyzed the electronic listings for Chargeback Years (CBY) 2003 through 2006 to
determine the Social Security Administration’s (SSA) Federal Employees’
Compensation Act (FECA) program costs from July 1, 2002 through June 30, 2006.
The listings identified costs for 11,668 FECA claimants. On the various chargeback
listings, some claimants were identified multiple times within a given CBY as well as
identified on chargeback listings for multiple years. To eliminate the duplication of
individual claimants, we merged the individual chargeback listings and developed a
comprehensive listing that identified a FECA claimant once. Of the 11,668 claimants,
we identified 6,139 listed at least once on the chargeback listings.

To determine whether FECA claimants for these periods were SSA employees, we
requested SSA to complete a computerized match of data recorded in the Human
Resources Management Information System to the FECA claimants’ Social Security
numbers. The Agency matched Human Resources Management Information System
data, as of July 2007, with the Social Security numbers of 6,139 FECA claimants
identified as SSA employees for CBYs 2003 through 2006.

To test compliance with SSA’s third-party liability procedures, we reviewed certain
claimant case file documentation to determine if Agency’s procedures were followed.
From 6,139 claimants, we randomly selected a sample of 50 claimants’ cases for
further review. To determine whether certain forms indicated a decision was made
concerning the possibility of third-party liability, as required, we reviewed the Federal
Employee’s Notice of Traumatic Injury and Claim for Continuation of
Pay/Compensation, and Notice of Occupational Disease and Claim for Compensation,
as appropriate. Specifically, we examined the forms to determine whether Agency staff
had marked the appropriated box to identify if the injury was caused by a third party.
                                                                                Appendix E

Implementation of Recommendations from May 1995
Report, Review of the Social Security Administration’s
Management of Claims Filed under the Federal
Employees’ Compensation Act (A-13-92-00236)
Our October 2001 report identified several concerns in the Social Security
Administration’s (SSA) management of its Federal Employees’ Compensation Act
(FECA) program and made recommendations to address these issues. In our audit, we
reviewed the extent to which SSA implemented six of the eight recommendations in our
2001 report (see Appendix B). Of the six, one recommendation indicated the Agency
needed to implement recommendations from our 1995 audit report 1, as previously
agreed. Therefore, we reviewed the extent to which SSA took action concerning certain
recommendations made in 1995.

In our 1995 audit report, we recommended case files be maintained for 3 years after
medical and compensation services cease. Our October 2001 report did not address
this issue. However, in November 2007, we verified Agency policy required claimant
case files be maintained for 6 years after the FECA claim is closed.
                                                        2
Similar to a recommendation made in our 2001 report, we recommended in 1995 that
SSA appoint one or more senior-line officials to coordinate FECA responsibilities both
at central and regional offices. We also recommended that the Agency take action to
verify whether FECA claimants were SSA employees, and review third-party liability. As
stated earlier within this report, we found the Agency had taken action to address these
issues.




1
 Review of the Social Security Administration’s Management of Claims Filed Under the Federal
Employees’ Compensation Act (A-13-92-00236).
2
 The Social Security Administration’s Management of Its Federal Employees’ Compensation Act Program
(A-13-99-91003).
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY


 MEMORANDUM


Date:        March 19, 2008                                                       Refer To:   S1J-3

To:          Patrick P. O'Carroll, Jr.
             Inspector General

From:        David V. Foster /s/
             Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Report, "Follow-Up: The Social Security
             Administration’s Management of Its Federal Employees’ Compensation Act Program”
             (A-13-07-17074)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. We were pleased that you were able to
           report that we had taken action to implement recommendations from your October 2001 audit
           report and that we had taken other actions regarding the oversight and monitoring of our Federal
           Employees’ Compensation Act program.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Lance Chilcoat, Audit Manager, General Management (410) 965-9743

Acknowledgments

In addition to those named above:

   Tracey Edwards, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-07-17074.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
